=
I

C@OCKLE

2311 Douglas Street Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-438

CLEMENTE AVELINO PEREIDA,
Petitioner,

Vv.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF IMMIGRATION REFORM LAW
INSTITUTE IN SUPPORT OF RESPONDENT in the above entitled case. All parties required to be served have been served
by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER J. HAJEC LAWRENCE J. JOSEPH
IMMIGRATION REFORM Counsel of Record
LAW INSTITUTE 1250 Connecticut Av NW
25 Massachusetts Av NW Suite 700-1A
Suite 335 Washington, DC 20036
Washington, DC 20001 (202) 355-9452
(202) 232-5590 [j@larryjoseph.com
chajec@irli.org

Subscribed and sworn to before me this 4th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

 

fener] Anes 0 thao Ondine, Che
Notary Public

Affiant 39598
Service List
Pereida v. Barr, No. 19-438 (U.S.)

Counsel for Petitioner Clemente Avelino Pereida:

Brian Philip Goldman

Orrick, Herrington & Sutcliffe LLP
405 Howard Street

San Francisco, CA 94105

Tel: 415-773-5676

Email: brian.goldman@orrick.com

Counsel for Respondent William P. Barr, Attorney General:

Hon. Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Tel: 202-514-2217

Email: SupremeCtBriefs@USDOJ.gov
